               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-03626-73




    Combined Assessment Program 

            Review of the 

         James E. Van Zandt 

          VA Medical Center 

       Altoona, Pennsylvania 





February 14, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       James E. Van Zandt VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. Acting VISN Director Comments .......................................................................                        20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              26

  F. Report Distribution .............................................................................................            27

  G. Endnotes ...........................................................................................................         28





VA OIG Office of Healthcare Inspections
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
October 21, 2013.

Review Results: The review covered seven activities.                            We    made     no
recommendations in the following two activities:

 Coordination of Care

 Nurse Staffing

The facility’s reported accomplishment was the establishment of the Veterans Justice
Outreach Program.

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure the Peer Review Committee consistently submits
quarterly summary reports to the Clinical Management Committee.

Environment of Care: Secure soiled utility rooms and unattended construction sites.
Educate canteen/cafeteria employees on hand hygiene requirements. Ensure all
designated x-ray and fluoroscopy employees receive annual radiation safety training.
Conduct and document daily automated external defibrillator checks.

Medication Management: Ensure clinicians conducting medication education
accommodate identified learning barriers and document the accommodations made to
address those barriers.

Pressure Ulcer Prevention and Management: Establish an interprofessional pressure
ulcer committee. Provide and document pressure ulcer education for patients at risk for
and with pressure ulcers and/or their caregivers.
Community Living Center Resident Independence and Dignity: Ensure employees who
perform restorative nursing services receive training on and competency assessment
for range of motion and resident transfers.

Comments
The Acting Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and




VA OIG Office of Healthcare Inspections                                                          i
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


provided acceptable improvement plans. (See Appendixes C and D, pages 20–25, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
October 21, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                         1
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the James E. Van Zandt VA Medical Center, Altoona, Pennsylvania,
Report No. 09-01732-10, October 16, 2009). We made a repeat recommendation in
EOC.

During this review, we presented crime awareness briefings for 207 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
104 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Veterans Justice Outreach Program
The facility successfully established VA presence in veterans’ courts in Centre and
Cambria counties through the Veterans Justice Outreach Program. This program helps
avoid unnecessary criminalization of veterans with mental illness and extended
incarceration by ensuring that eligible justice-involved veterans have timely access to
VA medical services as clinically indicated. In FY 2013, facility staff visited the Centre
County jail in Bellefonte to enroll veterans into treatment when possible. Facility staff
have also reached out to criminal justice advisory boards, local government groups, and
legal systems to provide information about the Veterans Justice Outreach Initiative.




VA OIG Office of Healthcare Inspections                                                         2
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met              Twelve months of Clinical Management
       selected requirements:                             Committee meeting minutes reviewed:
        The PRC was chaired by the Chief of Staff         Only two quarterly summary reports were
          and included membership by applicable             documented as received by the Clinical
          service chiefs.                                   Management Committee.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                    3
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 NA    The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
 NA    Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    4
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


NM              Areas Reviewed (continued)                                    Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that the PRC consistently submit quarterly summary reports to the
Clinical Management Committee.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the medicine, the intensive care, and two CLC units; the emergency department;
the outpatient behavioral health clinic; the dental clinic; the laboratory; and radiology.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed five radiology employee training records. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                  
 X     Environmental safety requirements were met.         Soiled utility rooms were not secured in the
                                                            four inpatient care areas inspected. This was
                                                            a repeat finding from the previous CAP
                                                            review.
                                                           Two patient care area construction sites were
                                                            unattended and unsecured.
 X     Infection prevention requirements were met.         In the canteen/cafeteria area, employees
                                                            were observed not washing their hands after
                                                            working at a cash register and then returning
                                                            to prepare food.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
              Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,      
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.


VA OIG Office of Healthcare Inspections                                                                    6
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


NM      Areas Reviewed for Radiology (continued)                              Findings
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
 X     Designated employees received initial                None of the five x-ray and fluoroscopy
       radiation safety training and training thereafter     employees with ≥2 years of employment had
       with the frequency required by local policy,          documentation of radiation safety training.
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
 X     Medication safety and security requirements         Local policy for crash cart/automated external
       in x-ray and fluoroscopy were met.                  defibrillator checks reviewed:
                                                            No automated external defibrillator testing
                                                             had been documented since July 2013.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for                    
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


NM      Areas Reviewed for Acute MH (continued)                               Findings
NA     MH unit staff, Multidisciplinary Safety             
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 NA    The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
 NA    The facility complied with any additional           
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

2. We recommended that processes be strengthened to ensure that soiled utility rooms are
secured and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that construction sites are
secured when unattended and that compliance be monitored.

4. We recommended that canteen/cafeteria employees be educated on hand hygiene
requirements and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that all designated x-ray and
fluoroscopy employees receive annual radiation safety training.

6. We recommended that processes be strengthened to ensure that automated external
defibrillator checks are conducted daily and documented and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    8
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
 X     If learning barriers were identified as part of     For the 17 patients with identified learning
       the learning assessment, medication                  barriers, EHR documentation did not reflect
       counseling was adjusted to accommodate the           medication counseling accommodation to
       barrier(s).                                          address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

7. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    9
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 14 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                     Areas Reviewed                                         Findings
      Patients’ post-discharge needs were identified,
      and discharge planning addressed the
      identified needs.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
      Patients received the ordered aftercare
      services and/or items within the
      ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   10
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on two inpatient units (acute medical/surgical and long-term care).5

We reviewed facility and unit-based expert panel documents and seven training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 2 randomly selected units—acute medical/surgical unit 4 Medical and the CLC—for
50 randomly selected days between October 1, 2012, and September 30, 2013. The table
below shows the areas reviewed for this topic. Any items that did not apply to this facility are
marked NA. The facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 11 EHRs of patients with pressure ulcers (1 patient with
hospital-acquired pressure ulcers and 10 patients with community-acquired pressure ulcers),
and 10 employee training records. The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
 X     The facility had an interprofessional pressure      The facility did not have an interprofessional
       ulcer committee, and the membership                  pressure ulcer committee.
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
 X     The facility defined requirements for patient      Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and        education requirements reviewed:
       education on pressure ulcer prevention and          None of the 11 EHRs contained evidence that
       development was provided to those at risk for        education was provided.
       and with pressure ulcers and/or their
       caregivers.



VA OIG Office of Healthcare Inspections                                                                   12
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


NM             Areas Reviewed (continued)                                     Findings
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
 NA    The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8.    We recommended that the facility establish an interprofessional pressure ulcer committee.

9. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   13
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 10 EHRs of residents (5 residents receiving restorative nursing services and
5 residents not receiving restorative nursing services but candidates for services). We also
observed nine residents during two meal periods, reviewed five employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                        Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were             Two employee training records did not
       completed for staff who performed restorative        contain evidence of training in resident
       nursing services.                                    transfers.
                                                           None of the records contained evidence of
                                                            training in range of motion.
                                                           None of the records contained evidence of
                                                            competency assessment for range of motion
                                                            and resident transfers.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   14
                                          CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


NM         Areas Reviewed for Assistive Eating                                  Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

10. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on and competency assessment for range of motion
and resident transfers.




VA OIG Office of Healthcare Inspections                                                                   15
                                      CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                             Appendix A


    Facility Profile (Altoona/503) FY 2014 through October 2013
Type of Organization                                                                 Secondary
Complexity Level                                                                     3-Low complexity
Affiliated/Non-Affiliated                                                            Non-Affiliated
Total Medical Care Budget in Millions                                                $108.3
Number of:
    Unique Patients                                                                 24,816
    Outpatient Visits                                                               213,442
    Unique Employeesa                                                               472
Type and Number of Operating Beds:
    Hospital                                                                        28
    CLC                                                                             40
    MH                                                                              N/A
Average Daily Census:
    Hospital                                                                        8
    CLC                                                                             35
    MH                                                                              N/A
Number of Community Based Outpatient Clinics                                         3
Location(s)/Station Number(s)                                                        Johnstown/503GA
                                                                                     DuBois/503GB
                                                                                     State College/503GC
VISN Number                                                                          4




a
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period.


VA OIG Office of Healthcare Inspections                                                                    16
                                                   CAP Review of the CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                                                            Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)b




b
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                              17
                                                      CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                               18
                                                                                                CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           19
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                      Appendix C
                         Acting VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:        January 17, 2014

          From:         Director, VA Healthcare (10N4)

       Subject: 	       CAP Review of the James E. Van Zandt VA Medical
                        Center, Altoona, PA

             To: 	      Director, Washington, DC, Office of Healthcare Inspections
                        (54DC)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. I have reviewed the document and concur with the recommendations.
          Corrective action plans have been established with planned completion
          dates, as detailed in the attached report.

       2. If you have any questions or concerns, please contact Barbara Forsha,
          VISN 4 Quality Management Officer at 412-822-3290.


       (original signed by:)
       Gary W. Devansky
       Acting VISN 4 Network Director




VA OIG Office of Healthcare Inspections                                                        20
                                 CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                        Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs 	                                   Memorandum


           Date:        January 17, 2014

          From:         Director, James E. Van Zandt VA Medical Center (503/00)

       Subject: 	       CAP Review of the James E. Van Zandt VA Medical
                        Center, Altoona, PA

             To:        Director, VA Healthcare (10N4)

       1. I have reviewed and concur with the findings and recommendations
          in draft report of the Office of the Inspector General Combined
          Assessment     Program     Review   conducted    the   week   of
          October 21, 2013.

       2. Corrective actions plans have been established with target completion
          dates, as detailed in the attached report.


       (original signed by:)
       William H. Mills
       Director




VA OIG Office of Healthcare Inspections                                                          21
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the PRC consistently submit quarterly
summary reports to the Clinical Management Committee.

Concur

Target date for completion: June 30, 2014

Facility response: The Clinical Management Committee (CMC) tracking spreadsheet
has been updated by the Chief of Staff to reflect that Peer Review Committee reports
(to include graphs) are presented to the CMC quarterly (March, June, September,
December). To become current on the reports, second quarter peer review data was
reviewed at the November CMC meeting. Third quarter data was reviewed at the
December CMC meeting and is now current with the quarterly reporting. Peer review
data will continue to be reviewed at CMC quarterly as per the quarterly schedule.
Minutes from the CMC will be monitored by the Chief of Staff to ensure the minutes
reflect that these reports have been discussed at the required frequency. Monitoring
will continue through June 2014 to show compliance is sustained.

Recommendation 2. We recommended that processes be strengthened to ensure that
soiled utility rooms are secured and that compliance be monitored.

Concur

Target date for completion: April 15, 2014

Facility response: Soiled utility room locks were ordered in December. Within two
weeks of receipt, the Chief Facilities Service will ensure that the locks will be installed
and that the staff will be educated on the use of the locks. The locks are self-locking
therefore the doors are always locked.

Recommendation 3. We recommended that processes be strengthened to ensure that
construction sites are secured when unattended and that compliance be monitored.

Concur

Target date for completion: April 30, 2014

Facility response: The Associate Director received confirmation from contracting that
construction contracts require that unattended construction sites will be secured. The
construction Contracting Officer Representatives (CORs) were re-educated on


VA OIG Office of Healthcare Inspections                                                        22
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


January 15, 2014, and monitoring began January 15, 2014. Monitoring will be reported
by CORs to the Construction Safety Sub-Committee starting in February 2014 until
documentation of three consecutive months of compliance is achieved.

Recommendation 4.       We recommended that canteen/cafeteria employees be
educated on hand hygiene requirements and that compliance be monitored.

Concur

Target date for completion: March 31, 2014

Facility response: The Chief, Canteen Service re-educated the canteen staff on hand
washing/hand hygiene. Starting in January 2014, the Chief, Nutrition and Food Service
will monitor compliance monthly and report compliance data to the Infection Control
Committee and the Associate Director until documentation of three consecutive months
of compliance is achieved.

Recommendation 5. We recommended that processes be strengthened to ensure that
all designated x-ray and fluoroscopy employees receive annual radiation safety training.

Concur

Target date for completion: Completed November 13, 2013

Facility response: All radiology technologists have completed radiation safety courses in
Talent Management System (TMS). Additionally, the National Radiology Program
Office distributed a course for fluoroscopy training which was read by all technologists
and documented at the November 13, 2013 staff meeting. Annually, the radiology
supervisor will assign TMS (radiation safety) courses to the technologists. The
1st quarter of each year, the MRI and Radiation Safety Committee will evaluate annual
radiation and fluoroscopy training requirements and report findings to the Radiation
Safety Officer.

Recommendation 6. We recommended that processes be strengthened to ensure that
automated external defibrillator checks are conducted daily and documented and that
compliance be monitored.

Concur

Target date for completion: March 31, 2014

Facility response: The radiology supervisor provided education to the technologists on
proper defibrillator checks at the radiology staff meeting of November 13, 2013. The
MRI crash cart is checked daily by the MRI technologists at the beginning of each shift.
The CT and general crash cart is also checked daily at the beginning of each shift by an
assigned technologist. Crash cart checks now include running external defibrillator
strips. Crash cart check monitoring is now a standard topic on the radiology staff
meeting agenda and reported quarterly at the radiology staff meeting.


VA OIG Office of Healthcare Inspections                                                        23
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


Recommendation 7. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: March 31, 2014

Facility response: The Associate Director for Patient Care/Nursing Service enhanced
the discharge instruction template to reflect that the communication needs has been
addressed. The Associate Director for Patient Care/Nursing Service will be monitoring
100 percent of discharge instructions for documentation that reflects the component of
communication needs assessment has been completed until three consecutive months
of compliance is achieved beginning in January 2014. The benchmark/threshold for
compliance will be 90 percent.

Recommendation 8. We recommended that the facility establish an interprofessional
pressure ulcer committee.

Concur

Target date for completion: June 30, 2014

Facility response: The Associate Director for Patient Care/Nursing Service established
an interprofessional pressure ulcer committee which includes the Community Living
Center Registered Nurse Assessment Coordinator (Chairperson), Certified Wound Care
Specialist, Nurse Educator, Outpatient Service Registered Nurse, Clincial Dietitian,
Pharmacist, and Supervisor Physical Medicine and Rehabilitiation. The committee will
meet quarterly. The first meeting for the interprofessional pressure ulcer committee was
January 16, 2014. The minutes from this meeting are forwarded to the Patient Care
Services Management Council and will be included in the reports submitted to the
Clinical Management Committee on a quarterly basis. The Associate Director for
Patient Care/Nursing Service will monitor compliance until 2 quarters of compliance is
achieved starting January 2014.

Recommendation 9. We recommended that processes be strengthened to ensure that
acute care staff provide and document pressure ulcer education for patients at risk for
and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: March 31, 2014

Facility response: The Associate Director for Patient Care/Nursing Service will ensure
that the patient’s plan of care reflects pressure ulcer education was provided for the
patient/caregiver. Pressure ulcer education will be reflective in the plan of care – as the
problem/planning is identified, interventions are completed and the evaluation of the


VA OIG Office of Healthcare Inspections                                                        24
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA


problem is done. In addition, a drop down box for pressure ulcer education was added
to the discharge instruction template. The Associate Director for Patient Care/Nursing
Service will be monitoring 100 percent of care plans until three consecutive months of
compliance is achieved beginning in January 2014. The Associate Director for Patient
Care/Nursing Service will be monitoring 100 percent of discharge notes of
patients/residents with pressure ulcers until three consecutive months of compliance is
achieved beginning in January 2014. The benchmark/threshold for compliance will be
90 percent.

Recommendation 10. We recommended that processes be strengthened to ensure
that employees who perform restorative nursing services receive training on and
competency assessment for range of motion and resident transfers.

Concur

Target date for completion: January 31, 2014

Facility response: The Associate Director for Patient Care/Nursing Service has
developed and distributed educational training plans to all staff for the training needed
(range of motion and resident transfers), and staff is in the process of completing the
needed training. As part of the training, the staff member will have the checklist
completed which will validate the competency for each individual with completion of
January 31, 2014 as so noted for the training. The Associate Director for Patient
Care/Nursing Service has developed a process for continued training and competencies
to be completed for new Community Living Center staff through new employee
orientation. The Associate Director for Patient Care/Nursing Service will monitor weekly
staff compliance with completion of the training and competency assessments until
100% of staff have successfully completed the training and competency checklist.




VA OIG Office of Healthcare Inspections                                                        25
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Lisa Barnes, MSW, Team Leader
Contributors            Gail Bozzelli, RN
                        Myra Conway, RN, MS
                        Kay Foster, RN
                        Donna Giroux, RN
                        Randall Snow, JD
                        Thomas Dominski, Special Agent, Office of Investigations
Other                   Bruce Barnes
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        26
                               CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Acting Director, VA Healthcare (10N4)
Director, James E. Van Zandt VA Medical Center (503/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr.; Patrick J. Toomey
U.S. House of Representatives: Keith Rothfus, Bill Shuster, Glenn W. Thompson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        27
                                       CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            28
                                       CAP Review of the James E. Van Zandt VA Medical Center, Altoona, PA



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    29
